App. 1
United States Court of Appeals
for the Eighth Circuit
-----------------------------------------------------------------------------------------------

No. 20-1728
-----------------------------------------------------------------------------------------------

John Pietsch; Arlan Irwin, as Trustee for the
Albert and Grace Irwin Trust; Ward County
Farm Bureau, a North Dakota Non-Profit
Corporation; Ward County Farmer’s Union,
a North Dakota Non-Profit Corporation
Plaintiffs - Appellants
v.
Ward County, a Political Subdivision of the
State of North Dakota; The Board of County
Commissioners for Ward County, North Dakota
Defendants - Appellees
-----------------------------------------------------------------------

Appeal from United States District Court
for the District of North Dakota - Western
-----------------------------------------------------------------------

Submitted: February 18, 2021
Filed: March 16, 2021
-----------------------------------------------------------------------

Before LOKEN, BENTON, and KELLY, Circuit Judges.
-----------------------------------------------------------------------

App. 2
BENTON, Circuit Judge.
Plaintiffs claim, under 42 U.S.C. § 1983, that Ward
County’s right-of-way dedication ordinance violates
their procedural due process rights. The district court1
dismissed their claims. Pietsch v. Ward Cty., 446
F. Supp. 3d 513 (D.N.D. 2020). Having jurisdiction under 28 U.S.C. § 1291, this court affirms.
I.
Plaintiffs are two landowners (John M. Pietsch
and trustee Arlan L. Irwin), the Ward County Farm
Bureau, and the County Farmer’s Union.2 They seek to
enjoin the requirement in the County’s dedication ordinance that plats proposed along roads dedicate to
the public sufficient rights-of-way to meet road width
requirements. See Exhibits A & B, Memorandum
in Support of Summary Judgment (No. 18-0023,
D.N.D. May 1, 2019).
The landowners sought approval for plats without
the required dedications. They applied for variances.
The County Board of Commissioners considers variances through paper application or during a zoning
board meeting. Variances may be approved based on
“extraordinary hardship to the subdivider, because of
1

Honorable Peter D. Welte, United States District Court
Judge for the District of North Dakota.
2
Although the district court found standing for the Farm Bureau and Farmer’s Union, 446 F. Supp. 3d at 528-30, this court
need not address that issue in light of the disposition of this opinion.

App. 3
unusual topography, or other such conditions [that]
would result in retarding the achievement of the objectives of these [zoning] regulations.” Variance decisions
are recorded and stated in minutes of the County Commission.
Plaintiffs argue that the variance procedure violates
the Due Process clauses of the Fifth and Fourteenth
Amendments. (Plaintiffs do not raise a substantive due
process claim on appeal.) The district court granted the
County’s motion for summary judgment. Pietsch, 446
F. Supp. 3d at 541.
“This court reviews de novo a grant of summary
judgment.” Torgerson v. City of Rochester, 643 F.3d
1031, 1042 (8th Cir. 2011) (en banc). “Summary judgment is proper ‘if the pleadings, the discovery and disclosure materials on file, and any affidavits show that
there is no genuine issue as to any material fact and
that the movant is entitled to judgment as a matter of
law.’ ” Id., citing Fed. R. Civ. P. 56(c)(2).
II.
Plaintiffs’ arguments all assert that two Supreme
Court decisions—Dolan v. City of Tigard, 512 U.S. 374
(1994) and Nollan v. California Coastal Commission,
483 U.S. 825 (1987)—establish the procedural floor for
ordinances about, and review of, zoning variances.
Dolan and Nollan both interpreted the Takings
clause. See Koontz v. St. Johns River Water Mgmt.
Dist., 570 U.S. 595, 604 (2013). Plaintiffs did not plead

App. 4
any Takings claim before the district court: “the Plaintiffs explicitly disavow that their amended complaint
asserts any takings claims.” Pietsch, 446 F. Supp. 3d
at 536.
Plaintiffs’ due process and unconstitutional conditions claims are an impermissible attempt to recast a
Takings claim. See Lingle v. Chevron U.S.A., Inc.,
544 U.S. 528, 540, 546-48 (2005) (holding that a substantive due process inquiry has “no proper place” in
Takings doctrine, while distinguishing Nollan and Dolan as a special application of unconstitutional conditions doctrine for Takings). See also Reno v. Flores,
507 U.S. 292, 308 (1993) (rejecting substantive regulatory challenge rephrased as procedural due process).
The Court affirmed this principle saying, “the analogy
from the due process context to the takings context is
strained.” Knick v. Township of Scott, 139 S. Ct.
2162, 2174, 2176 (2019) (also observing: “As long as an
adequate provision for obtaining just compensation exists, there is no basis to enjoin government action effecting a taking”).
Plaintiffs claim the County’s dedication rules
could result in an exaction, which would require consideration of nexus and proportionality. But this conflates takings and due process law. “Under Nollan and
Dolan the government may choose whether and how a
permit applicant is required to mitigate the impacts of
a proposed development, but it may not leverage its legitimate interest in mitigation to pursue governmental
ends that lack an essential nexus and rough proportionality to those impacts.” Koontz, 570 U.S. at 606.

App. 5
Koontz authorizes a Takings claim, not a due process
claim: “Nollan and Dolan ‘involve a special application’
of [unconstitutional conditions] doctrine that protects
the Fifth Amendment right to just compensation for
property the government takes when owners apply for
land-use permits.” Id. at 604. Plaintiffs thus have a
remedy for unconstitutional exactions under the Takings clause. See id. at 605; Pietsch, 446 F. Supp. 3d at
520, 522, 538 (discussing alternative remedies). They
cannot claim a redundant remedy under the due process clause. Crown Point Dev., Inc. v. City of Sun
Valley, 506 F.3d 851, 855 (9th Cir. 2007) (“[T]he Fifth
Amendment would preclude a due process challenge
only if the alleged conduct is actually covered by the
Takings Clause.”).
The remaining issues are whether the challenged
zoning ordinance was truly irrational and whether the
County provided sufficient procedural due process.
“Due process claims involving local land use decisions
must demonstrate the government action complained
of is truly irrational, that is something more than arbitrary, capricious, or in violation of state law.” Koscielski v. City of Minneapolis, 435 F.3d 898, 902 (8th
Cir. 2006) (cleaned up). The Court implicitly approved
this test for due process challenges to zoning ordinances. See Lingle, 544 U.S. at 542 (“An inquiry of this
nature has some logic in the context of a due process
challenge, for a regulation that fails to serve any legitimate governmental objective may be so arbitrary
or irrational that it runs afoul of the Due Process
Clause.”), 548-49 (Kennedy, J., concurring) (observing

App. 6
that arbitrariness due process review survives Lingle).
The ordinance here promotes the government’s interest in providing public roads and was not truly irrational. Pietsch, 446 F. Supp. 3d at 538, 540.
“In the zoning context, assuming a landowner has
a protectible property interest, procedural due process
is afforded when the landowner has notice of the proposed government action and an opportunity to be
heard.” Anderson v. Douglas Cty., 4 F.3d 574, 578
(8th Cir. 1993). See generally Bituminous Materials,
Inc. v. Rice Cty., 126 F.3d 1068, 1070 (8th Cir. 1997)
(describing a legitimate claim to entitlement, rather
than a “mere subjective expectancy” as “a protected
property interest”). Since both Peitsch and Irwin received individualized notice and an opportunity to be
heard on their variance applications, the County provided sufficient notice and opportunity for a hearing
about their proposed uses. See Anderson, 4 F.3d at
578; Pietsch, 446 F. Supp. 3d at 523-24, 538 (summarizing plaintiffs’ notice and opportunity to be heard).
See generally Mathews v. Eldridge, 424 U.S. 319, 33334 (1976).
The district court properly granted summary judgment for defendants.
*******
The judgment is affirmed.

App. 7
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
)
)
)
)
)
)
)
)
)
)
Plaintiffs,
)
vs.
)
)
Ward County, a Political
)
Subdivision of the State of
North Dakota; and the Board )
of County Commissioners for )
Ward County, North Dakota, )
)
Defendants.
)
John Pietsch; Arlan Irwin
as Trustee for the Albert
and Grace Irwin Trust;
Ward County Farm Bureau,
a North Dakota Non-Profit
Corporation; and Ward
County Farmers Union,
a North Dakota Non-Profit
Corporation,

I.

MEMORANDUM
AND ORDER
(Filed Mar. 10, 2020)
Case No.
1:18-cv-00023

INTRODUCTION

In exchange for approval of plat applications on
property abutting section lines and existing roadways,
a Ward County, North Dakota (“Ward County” or the
“County”), zoning ordinance mandates that landowners dedicate a predetermined fee-title right of way to
the County. See Ward County, N.D., Zoning Ordinance

App. 8
ch. 3, art. 24, § 4(A)(12).1 The ordinance’s apparent
purpose is to facilitate road construction and maintenance, but the dedication requirement applies regardless of whether the County demonstrates a need for the
right of way for future road projects. As a compounding
factor, the exclusive method to avoid dedication forces
a landowner to apply for a variance and prove a hardship. And even if a variance is requested, the County
need not consider the applicant’s proposed use of the
property or any attendant financial harm resulting
from the dedication. At its core, the ordinance appears
to imbue Ward County with the authority to take for
free what it would otherwise have to pay for through
eminent domain. In that sense, the ordinance seems to
be an affront to the Takings Clause of the United
States Constitution.
But this is not a takings case. Instead, the Plaintiffs have chosen to wield two alternative legal theories—substantive and procedural due process—to
vindicate their claims. In a single-count amended complaint invoking 42 U.S.C. § 1983, the Plaintiffs lodge
both facial and as-applied constitutional challenges
against the dedication ordinance. Doc. No. 30. They
seek nominal damages and, much more significantly,
an order declaring the ordinance unconstitutional,
along with an accompanying permanent injunction
1

The Court refers to § 4(A)(12) throughout as the “dedication
ordinance,” the “ordinance,” or the “dedication requirement” collectively with related provisions located at Doc. Nos. 43-1 and
43-2. In citations, the Court abbreviates “Ward County, N.D.,
Zoning Ordinance” to “W.C.Z.O.”

App. 9
barring further enforcement. Now pending are cross
motions for summary judgment. Doc. Nos. 40, 42. Because due process is a square peg in a round hole here,
the ordinance escapes unscathed.
II.

BACKGROUND

Despite the voluminous record, the facts present
as straightforward and uncontested. Prior to addressing the Plaintiffs’ claims, a summary of the dedication
ordinance is necessary. A brief introduction of the parties and this case’s procedural history follows.
A. The Dedication Ordinance
Outside of incorporated cities, North Dakota has
designated 33-foot right-of-way easements for public
roads on each side of every section line (for a total of
66 feet) since before statehood. See N.D. Cent. Code
§ 24-07-03. Counties, as political subdivisions of the
state, lack independent authority to construct and
maintain roadways unless they create a home-rule
charter. See Doc. No. 30, ¶ 18. Ward County has
adopted such a charter, so it may “[p]rovide for zoning,
planning, and subdivision of public or private property
within the county limits but outside the zoning authority of any city or organized township.” N.D. Cent. Code
§ 11-09.1-05. As a natural extension, the County is permitted to provide for and regulate a county road system, as well as “acquire, hold, operate, and dispose of
property within or without the county limits, and exercise the right of eminent domain” for that road system.

App. 10
Ward County, N.D., Home Rule Charter art. 2(a), (f ).
No one quarrels with the statutory easement mandate
or the County’s usual eminent domain procedures.
Equally uncontroversial is the North Dakota Century Code provision that spells out the procedure for
approval of a subdivision plat. The basic building block
says, “No subdivision . . . shall be made . . . except in
accordance with a plat as finally approved by the board
of county commissioners.” N.D. Cent. Code § 11-33.212. Before a county commission can approve a plat,
though, the county’s planning commission and the relevant township get an opportunity to weigh in on the
proposal. See id. These recommendations are nonbinding.
Once a plat application works its way up the ladder for final approval, the board of county commissioners is required to consider certain factors. If an
applicant satisfies the statutory criteria, the commission must approve the plat—if not, mandatory disapproval follows:
In determining whether a plat shall be finally
approved or disapproved, the board of county
commissioners shall inquire into the public
use and interest proposed to be served by the
subdivision. . . . If it finds that the proposed
plat makes appropriate provisions for the
public health, safety, and general welfare and
for such open spaces, drainage ways, streets,
alleys, other public ways, water supplies,
sanitary wastes, parks, playgrounds, sites
for schools and school grounds, and that the

App. 11
public use and interest will be served by the
platting of such subdivision, and that the proposed plat complies with a county resolution,
if any, regulating or restricting the subdivision of land, to the extent that such resolution
does not conflict with the provisions of this
section, such plat shall be finally approved
with such conditions as the board of county
commissioners may deem necessary. If it finds
that the proposed plat does not make appropriate provisions, or that the public use and
interest will not be served, or that the proposed plat does not so comply with the aforementioned resolution, then the board of
county commissioners shall disapprove the
proposed plat. . . .
Id. The plat approval statute has one final—and critical—sentence, which states, “Dedication of land to any
public body may be required as a condition of subdivision approval and shall be clearly shown on the final
plat.” Id. The challenged Ward County ordinance does
just that, mandating the dedication of fee-title right of
way along section lines and roadways to the County as
a condition for outlot and subdivision plat approval.
See W.C.Z.O. ch. 3, art. 24, § 4(A)(12). For section lines,
township roads, frontage roads, and rural subdivision
roads, the County requires 40 feet from each side of the
center line (for a total of 80 feet); for county roads, 75
feet from each side (for a total of 150 feet). Id.
The genesis for the expanded dedication requirement came from local engineers and developers informing the County that the 33-foot statutory right of

App. 12
way allotted insufficient space for road construction
projects. Doc. No. 44-5 at 60:11-64:15. Enacted on April
6, 2010 by the Board of County Commissioners for
Ward County (“County Commission”)—unanimously
and with no opposition during the public comment period—the ordinance’s stated purpose largely mirrors
the Century Code’s requirements for plat approval:
In order to provide for the proper arrangement of streets in relation to other existing
and planned streets, and to the master plan of
the City of Minot; to provide for adequate and
convenient open spaces, for recreation, for
light and air; in order to avoid congestion of
population; in order to provide for traffic, for
utilities, for access of fire-fighting apparatus;
in order to provide for and improve the public
health, safety and general welfare of the
County of Ward, the following rules and regulations for the [platting] and subdivision of
zoned land within the County of Ward are
made part of this regulation in accordance
with the laws of the State of North Dakota.
W.C.Z.O. ch. 3, art. 24, § 1; see also Doc. No. 46 (audio
recording of April 6, 2010 County Commission meeting
filed conventionally). The County Commission does not
have to articulate a specific need for right of way when
approving a plat application. Doc. No. 30, ¶ 25. Rather,
the dedication requirement applies as a matter of
course to all subdivision and outlot plats. Doc. No. 445 at 87:10-20.
Because of this uniform approach, Ward County
has essentially stripped itself of any discretion to

App. 13
approve a subdivision or outlot plat that does not comply with the dedication requirement. See Doc. No. 44-5
at 87:10-20. A landowner therefore has a single path
to avoiding dedication—a variance. Doc. No. 44-1 at
20:17-24. The variance process begins with the applicant paying a mandatory $100 application fee. See Doc.
No. 44-9. From there, the application passes to the
Ward County Planning Commission (“Planning Commission”) and the appropriate township for comment.
See Doc. No. 30, ¶¶ 47, 51. The variance request is then
presented to the County Commission for an up or down
vote. Id. ¶ 49. At that point, the County Commission
must determine whether the dedication would impose
a hardship. See W.C.Z.O. ch. 3, art. 24, § 8(A). The burden to prove a hardship rests with the applicant. Doc.
No. 44-6 at 20:12-21. Circumstances constituting a
hardship are limited to physical characteristics of the
property. Doc. No. 44-1 at 20:17-24. Although in practice the County Commission considers the applicant’s
proposed use of the property if included with a variance request, it is not required to, and any motion to
approve a variance must state the hardship on the
property itself. See Doc. Nos. 44-5 at 111:15-112:1; 446 at 19:15-22. Purely economic justifications cannot
support a hardship variance. Doc. No. 44-1 at 20:17-24.
A few ancillary matters are important to mention
at this juncture as well. An appeal process is available
for landowners that receive an adverse decision on a
plat application, permitting review by a North Dakota

App. 14
state district court.2 W.C.Z.O. ch. 3, art. 24, § 13(C).
North Dakota also recognizes actions for inverse condemnation, through which a landowner can compel
compensation for property taken by a government entity. See Lenertz v. City of Minot, 2019 ND 53, ¶ 10, 923
N.W.2d 479. And finally, Ward County’s dedication ordinance has generated some political opposition. The
Planning Commission, for example, voted in May 2017
to recommend eliminating the additional dedication
requirement altogether, leaving only the 33-foot statutory easement requirement in place. Doc. No. 30,
¶¶ 33-34. In a June 2017 vote, the County Commission
rejected the Planning Commission’s recommendation.
Id. ¶ 37. To date, the dedication ordinance remains intact. Id. ¶ 38.
B. Introduction of Parties
The Plaintiffs are two individuals that refrained
from subdividing property because of the dedication ordinance and two non-profit organizations that oppose
the ordinance. The first individual Plaintiff is John
Pietsch (“Pietsch”), a farmer residing in Freedom
Township within Ward County. Doc. No. 44-8 at 11:916. Pietsch sought to carve out an approximately 5.3acre outlot from his existing 143.21-acre property. Doc.
No. 44-7, p. 2. He intended to use the outlot for a farm
2

The parties dispute whether an aggrieved landowner is also
entitled to a separate review hearing before the County Commission prior to pursuing an appeal in state district court. See
W.C.Z.O. ch. 3, art. 24, § 13(A)(1). If so, that distinction is immaterial to the resolution of the pending motions.

App. 15
shop to store machinery. Doc. No. 30, ¶ 45. The proposed outlot would have bordered County Road 18.
Doc. No. 44-8 at 15:16-16:11. The County had previously offered to purchase right of way from Pietsch for
a planned reconstruction of County Road 18, but he declined the offer. Id. at 51:6-52:18. When Pietsch later
submitted his outlot application, the dedication ordinance kicked in, which called for him to dedicate right
of way spanning 75 feet. See Doc. No. 44-10. Had Pietsch complied, the County would have obtained right
of way, at no cost, to nearly one acre of the proposed
5.3-acre outlot. See Doc. No. 44-7. Hoping to avoid that
outcome, Pietsch submitted his proposed outlot plat
with an accompanying variance request and paid the
mandatory $100 application fee. Id.; Doc. No. 44-9.
The Planning Commission initially recommended
approving the variance on April 20, 2017, finding that
any property dedicated in excess of the statutory 33foot right of way would present a hardship for Pietsch.
Doc. No. 44-10, p. 3. The Freedom Township Planning
and Zoning Commission (“Freedom Township Commission”) concurred. Doc. No. 30, ¶ 51. Both entities then
forwarded their nonbinding recommendations to the
County Commission. On May 16, 2017, the County
Commission denied the variance request because the
physical characteristics of Pietsch’s property fell outside the requirements for a hardship. Doc. No. 44-12,
p. 4. The County Commission did not assess the proposed outlot’s transportation-related impact. Doc. No.
30, ¶ 54. Pietsch accordingly halted his plans to develop the outlot. He still desires to create the outlot if

App. 16
he can do so without dedicating the additional right of
way to the County. Doc. No. 44-13. Pietsch neither appealed the County Commission’s denial of his variance
application nor instituted an inverse condemnation action.
Arlan Irwin (“Irwin”) is the second individual
Plaintiff. He serves as a trustee for the Albert and
Grace Irwin Trust (“Trust”). Doc. No. 44-19. The Trust
owns farmland in Freedom Township. Doc. No. 44-15
at 20:5-12. Irwin, as trustee, proposed to create two
outlots, dubbed Outlot 6 and Outlot 7, from the Trust’s
total 150.52-acre property. Doc. No. 44-14, p. 2. While
Irwin had no immediate plans to develop the outlots,
he assumed that Outlot 6, an undeveloped 7.48-acre
plat, and Outlot 7, an 8.72-acre plat that included a
house and some farm-related structures, would be sold
for eventual residential use. Id. at 2-4. The Planning
Commission approved Outlot 7 on January 19, 2017.
Doc. No. 44-16, p. 2. Outlot 6, on the other hand, abutted 191st Avenue Southeast, a minimally improved
gravel road that stretches less than 1 6 miles in total
and dead ends in two private driveways. Doc. No. 30,
¶ 60. Because the County classified 191st Avenue
Southeast as a township road, the ordinance required
the dedication of a 40-foot right of way. Id. ¶ 59. At first,
Irwin included only the 33-foot statutory right of way
in the Trust’s plat application for Outlot 6. Doc. No. 4414, p. 2. The Freedom Township Commission recommended approval of the plat without the additional

App. 17
seven feet of right of way.3 Doc. No. 30, ¶ 65. The Planning Commission, however, rejected Irwin’s application and requested that he either include the 40-foot
right of way in an amended plat application or apply
for a variance. Doc. No. 44-16, p. 2.
Irwin chose the latter route, submitting a variance
application that sought approval of Outlot 6 without
the additional right of way. Doc. No. 44-14. Pietsch,
who also served as chairman of the Freedom Township
Commission at the time, presented the Trust’s variance
application to the Planning Commission on Irwin’s behalf. Doc. No. 44-17, p. 2. Apparently persuaded, the
Planning Commission recommended approval of the
variance on March 16, 2017, deeming the additional
right of way unnecessary because 191st Avenue Southeast was an “extremely low traffic” gravel road not
prone to future development concerns. See id.
Notwithstanding the recommendation for approval, the County Commission denied the Trust’s plat
application on April 4, 2017. Doc. No. 44-18, p. 3. In
doing so, the County Commission did not consider
the transportation-related impacts that Outlot 6 presented, instead rejecting the variance because the plat
failed to meet the County’s right of way requirements.
3

Freedom Township’s own zoning ordinance calls for Ward
County to state a reason for right of way taken beyond the statutory 33 feet and to provide compensation to all Freedom Township
residents subjected to the dedication requirement. Doc. No. 30,
¶ 71. Ultimate authority over the conditions for plat approval
rests with the County, so township ordinances lack binding effect
in this regard. See N.D. Cent. Code § 11-33.2-12.

App. 18
See id.; Doc. No. 30 ¶¶ 76-78. Irwin’s desire remains to
create the outlot without dedicating the 40-foot right
of way to the County. Doc. No. 44-19, p. 2. Like Pietsch,
Irwin did not appeal the County Commission’s decision or attempt to obtain compensation through inverse condemnation.4
The remaining Plaintiffs, Ward County Farm Bureau (“WCFB”) and Ward County Farmers Union
(“WCFU”), are two organizations that advocate for
farmers’ rights and interests in Ward County. Doc. No.
30, ¶¶ 82-83. WCFB represents approximately 1,350
members, and WCFU has roughly 3,000 members. Doc.
Nos. 44-21, p. 2; 44-26 at 11:4-6. Pietsch is a member of
both organizations. Doc. No. 44-13, p. 2. WCFB’s stated
purpose is “improving prosperity for all North Dakotans by advocating for our state’s largest, renewable,
economic sector: agriculture.” Doc. No. 44-21, p. 12.
WCFB holds as one of its beliefs that “[p]roperty rights
are among the human rights essential to the preservation of individual freedom.” Id. at 10. WCFU’s mission
statement proclaims that the organization “is dedicated to promoting quality of life for family farmers
and ranchers, educating the community on a broad
base of issues and working for the future of agriculture.” Doc. No. 44-27. Both organizations have set aside
money and time to oppose the dedication ordinance.
4

Realistically, inverse condemnation was never available to
Pietsch and Irwin because Ward County did not acquire title to
any of their property. See Aasmundstad v. State, 2008 ND 206,
¶ 15, 763 N.W.2d 748 (citations omitted) (“To establish an inverse
condemnation claim, a property owner must prove a public entity
took or damaged the owner’s property. . . .”).

App. 19
For instance, WCFB contributed $5,000 in legal fees to
oppose the ordinance, while WCFU chipped in $3,500.
Doc. Nos. 44-22, p. 10; 44-29, pp. 4, 6. Dan Deaver and
Bob Finken, past presidents of WCFB and WCFU, respectively, each engaged in approximately 100 hours of
meetings and travel for the opposition effort at the expense of their organizations. Doc. Nos. 44-21, p. 6; 4428, p. 5. The two organizations also passed resolutions,
wrote letters to the County Commission, educated
members and the community, and encouraged attendance at County Commission meetings. See Doc. Nos.
44-21, p. 4; 44-26 at 66:21-68:5. Beyond the costs to the
organizations themselves, Ward County has enforced
the dedication ordinance against WCFB and WCFU
members. See Doc. No. 44-25, p. 5.
C. Procedural History
The Plaintiffs instituted this action on February 5,
2018. See Doc. No. 1. The complaint seeks declaratory
and injunctive relief pursuant to 42 U.S.C. § 1983 for
procedural and substantive due process violations, asserting Ward County’s dedication ordinance is unconstitutional on its face and as applied. With leave from
the Court, the Plaintiffs filed an amended complaint on
April 2, 2019 that added a claim for nominal damages
flowing from the alleged constitutional violations. See
Doc. No. 30. The Defendants filed an answer to the
amended complaint on June 5, 2019. Doc. No. 49. Both
parties moved for summary judgment on May 1, 2019
and submitted timely response and reply briefs thereafter. Doc. Nos. 42, 44.

App. 20
III. LEGAL STANDARD
A. Summary Judgment
Summary judgment is required “if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a); see also Celotex
Corp. v. Catrett, 477 U.S. 317, 322 (1986). “An issue is
‘genuine’ if the evidence is sufficient to persuade a reasonable jury to return a verdict for the nonmoving
party.” Schilf v. Eli Lilly & Co., 687 F.3d 947, 948 (8th
Cir. 2012) (citing Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986)). “A fact is material if it ‘might affect the outcome of the suit.’ ” Dick v. Dickinson State
Univ., 826 F.3d 1054, 1061 (8th Cir. 2016) (quoting Anderson, 477 U.S. at 248). Courts must afford “the nonmoving party the benefit of all reasonable inferences
which may be drawn without resorting to speculation.”
TCF Nat’l Bank v. Mkt. Intelligence, Inc., 812 F.3d 701,
707 (8th Cir. 2016) (quoting Johnson v. Securitas Sec.
Servs. USA, Inc., 769 F.3d 605, 611 (8th Cir. 2014)). “At
summary judgment, the court’s function is not to weigh
the evidence and determine the truth of the matter itself, but to determine whether there is a genuine issue
for trial.” Nunn v. Noodles & Co., 674 F.3d 910, 914 (8th
Cir. 2012) (citing Anderson, 477 U.S. at 249). If the movant demonstrates the absence of a genuine issue of
material fact, “[t]he nonmovant ‘must do more than
simply show that there is some metaphysical doubt as
to the material facts,’ and must come forward with
‘specific facts showing that there is a genuine issue for
trial.’ ” Torgerson v. City of Rochester, 643 F.3d 1031,

App. 21
1042 (8th Cir. 2011) (en banc) (quoting Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
586-87 (1986)).
For a successful § 1983 claim, the Plaintiffs must
establish that the Defendants violated rights guaranteed by the Constitution or federal statute while acting
under color of state law. Kelly v. City of Omaha, 813
F.3d 1070, 1075 (8th Cir. 2016). In this action, the
Plaintiffs claim the Defendants violated their Fourteenth Amendment5 substantive and procedural due
process rights through enactment and enforcement of
the dedication ordinance. Local ordinances adopted
under state authority are within the Fourteenth
Amendment’s reach. See Barnes v. City of Omaha, 574
F.3d 1003, 1005 (8th Cir. 2009). From a remedy perspective, a federal court “may declare the rights and
other legal relations of any interested party seeking
such declaration.” 28 U.S.C. § 2201(a). Injunctive relief
is available when necessary to enforce a declaratory
judgment. See 28 U.S.C. § 2202; Powell v. McCormack,
395 U.S. 486, 499 (1969).

5

The complaint asserts due process claims under both the
Fifth and Fourteenth Amendments. But there are no allegations
of constitutional violations by the federal government, so the
Fifth Amendment Due Process Clause is inapplicable. Dusenbery
v. United States, 534 U.S. 161, 167 (2002) (“The Due Process
Clause of the Fifth Amendment prohibits the United States, as
the Due Process Clause of the Fourteenth Amendment prohibits
the States, from depriving any person of property without ‘due
process of law.’ ”); Truong v. Hassan, 829 F.3d 627, 631 n.4 (8th
Cir. 2016) (citations omitted) (“The due process clause of the Fifth
Amendment applies only to the federal government.”).

App. 22
B. Facial Versus As-Applied Challenges
Functionally, the Plaintiffs’ objection to the dedication ordinance is twofold because they bring both
facial and as-applied challenges. Though this oftenmurky distinction normally does not alter the applicable substantive law, it does determine the “breadth of
the remedy” available. Bucklew v. Precythe, 587 U.S.
___, 139 S. Ct. 1112, 1127 (2019) (quoting Citizens
United v. FEC, 558 U.S. 310, 331 (2010)). Illustrating
that concept, as-applied challenges are inherently narrow. They inure when a law’s application violates an
individual’s constitutional rights under the circumstances presented. See United States v. Adams, 914
F.3d 602, 605 (8th Cir. 2019). The resulting remedy is
likewise narrow, preventing enforcement of the law to
the extent necessary to protect the particular challenger’s rights—but no further. See Brakebill v. Jaeger,
932 F.3d 671, 678 (8th Cir. 2019). Put differently, an asapplied challenge cannot invalidate a law wholesale.
See id.
For that to occur, a winning facial challenge is
needed. As the Supreme Court recently explained, “A
facial challenge is really just a claim that the law or
policy at issue is unconstitutional in all its applications.” Bucklew, 139 S. Ct. at 1127. To prevail on such
a claim, a challenger “must show that there is no set of
circumstances under which the law[ ] would be valid.”
Calzone v. Hawley, 866 F.3d 866, 870 (8th Cir. 2017)
(citing United States v. Salerno, 481 U.S. 739, 745
(1987)). When a challenger makes this stouter showing, then the constitutional defect renders the law

App. 23
completely invalid. “Facial challenges are disfavored”
in light of this wide-sweeping result. Brakebill, 932
F.3d at 677 (citing Wash. State Grange v. Wash. State
Republican Party, 552 U.S. 442, 449-51 (2008)).
A careful review of the Plaintiffs’ complaint and
their briefing on the pending summary judgment motions makes clear that only Pietsch and Irwin bring asapplied claims. The Plaintiffs’ memorandum supporting their motion for summary judgment, for instance,
mentions WCFB and WCFU only in passing when arguing the as-applied claims. See Doc. No. 44, pp. 28, 31.
At the same time, WCFB and WCFU concede that
Ward County has not applied the dedication ordinance
to either organization’s property. Doc. Nos. 44-20 at
11:1-20; 44-26 at 13:9-18. The two organizational
Plaintiffs instead seek outright invalidation of the
dedication ordinance on behalf of their members. See
Doc. No. 44-20 at 17:25-18:6. These are pure facial challenges.
With that baseline, the logical progression for analyzing simultaneous facial and as-applied challenges
is to work from narrow to broad. See Bd. of Trs. of State
Univ. of N.Y. v. Fox, 492 U.S. 469, 485 (1989) (explaining that “for reasons relating both to the proper functioning of courts and to their efficiency, the lawfulness
of the particular application of the law should ordinarily be decided first”). As a result, when addressing the
merits of the Plaintiffs’ procedural and substantive
due process claims, the Court will first address Pietsch
and Irwin’s narrower as-applied challenges, and then
move to the broader facial challenges.

App. 24
IV. JURISDICTIONAL ISSUES
Prior to exploring the merits of the Plaintiffs’ constitutional claims, however, the Defendants raise several jurisdictional and prudential considerations that
demand attention. More specifically, the Defendants
contend that all four Plaintiffs lack standing, that the
due process claims are not ripe for adjudication, and
that abstention doctrine applies. Each argument falls
flat.
A. Standing
The Defendants assert that none of the Plaintiffs
have standing, thereby divesting the Court of subject
matter jurisdiction. “Article III limits federal jurisdiction to ‘Cases’ and ‘Controversies,’ and there is no case
or controversy unless the party initiating the action
has standing to sue.” Owner-Operator Indep. Drivers
Ass’n, Inc. v. U.S. Dep’t of Transp., 831 F.3d 961, 966
(8th Cir. 2016) (citing Allen v. Wright, 468 U.S. 737, 750
(1984)). On a foundational level, standing requires (1) an
injury in fact, (2) causation, and (3) redressability.
Hughes v. City of Cedar Rapids, 840 F.3d 987, 992 (8th
Cir. 2016). Breaking these elements down, an injury in
fact is “the actual or imminent invasion of a concrete
and particularized legal interest.” Kuehl v. Sellner, 887
F.3d 845, 850 (8th Cir. 2018) (quoting Sierra Club v.
Kimbell, 623 F.3d 549, 556 (8th Cir. 2010)) (in turn citing Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-61
(1992)). When plaintiffs seek declaratory and injunctive relief, “they must show they are experiencing an

App. 25
ongoing injury or an immediate threat of injury.” Webb
ex rel. K.S. v. Smith, 936 F.3d 808, 815 (8th Cir. 2019)
(citing Frost v. Sioux City, 920 F.3d 1158, 1161 (8th Cir.
2019)). Causation is “a causal connection between the
alleged injury and the [defendant’s] challenged action.”
Kuehl, 887 F.3d at 850 (citations omitted). Redressability is “a likelihood that the injury will be redressed
by a favorable decision of the court.” Id. (citations omitted).
“The party invoking federal jurisdiction bears the
burden of establishing these elements.” Lujan, 504 U.S.
at 561. With that said, a standing probe cannot become “an assessment of the merits of a plaintiff ’s
claim.” Am. Farm Bureau Fed’n v. EPA, 836 F.3d 963,
968 (8th Cir. 2016) (quoting Red River Freethinkers v.
City of Fargo, 679 F.3d 1015, 1023 (8th Cir. 2012)).
Courts must therefore “assume that on the merits
the plaintiffs would be successful in their claims” when
undertaking a standing analysis. Id. (quoting Muir v.
Navy Fed. Credit Union, 529 F.3d 1100, 1106 (D.C. Cir.
2008)).
Applying these principles, the two individual
Plaintiffs have standing. The Defendants appear to
argue that Pietsch and Irwin lack standing because
they cannot establish a § 1983 claim for violations of
their due process rights. This argument improperly
conflates the less burdensome standing inquiry with a
full-blown analysis of the due process claims’ merits.
Pietsch and Irwin suffered actual injuries because, as
alleged, Ward County effectively prevented them from
subdividing their property. See Koontz v. St. Johns

App. 26
River Water Mgmt. Dist., 570 U.S. 595, 607 (2013) (noting that “the impermissible denial of a governmental
benefit is a constitutionally cognizable injury”). Pietsch forewent an opportunity to build a planned farm
shop, and Irwin was precluded from selling a portion
of the Trust’s land for future residential development.
And these injuries are ongoing. So long as the dedication ordinance remains on the books, the Plaintiffs will
be unable to receive approval for their plat applications, as well as the economic benefits that follow, without dedicating property to the County. They also assert
the dedication ordinance is procedurally deficient,
enough on its own to create an injury in fact for the
procedural due process claims. See Hughes, 840 F.3d at
994 (“The allegation[ ] that the procedure [for effecting
a property deprivation] is inadequate . . . sufficiently
establishes an injury in fact for Article III standing.”).
Added to that, North Dakota law solidifies that the
ability to subdivide property is a distinct legal interest.
See N.D. Cent. Code § 11-33.2-12.
For the remaining two elements, causation is
plainly satisfied because the County’s dedication ordinance, and the County Commission’s decisions to deny
Pietsch and Irwin’s plat applications, led directly to
the alleged injuries. Redressability is present, too. An
order enjoining the dedication ordinance’s future enforcement would allow the individual Plaintiffs to pursue their plat applications without the threat of forced
property dedication to the County. Pietsch and Irwin
meet the elementary requirements for standing.

App. 27
Whether the two organizational Plaintiffs have
standing requires additional consideration. Organizations, like individuals, can possess independent standing subject to the basic three-part test above. See
ARRM v. Piper, 367 F. Supp. 3d 944, 953 (D. Minn.
2019). Neither WCFB nor WCFU alleges that the dedication ordinance has directly impaired the value of
their property or their property rights. Instead, both
organizations claim that their injuries stem from the
resources they have expended in opposing the dedication ordinance. “Standing may be found when there is
a concrete and demonstrable injury to an organization’s activities which drains its resources and is more
than simply a setback to its abstract social interests.”
Nat’l Fed’n of the Blind of Mo. v. Cross, 184 F.3d 973,
979 (8th Cir. 1999) (citing Havens Realty Corp. v. Coleman, 455 U.S. 363, 379 (1982)). To meet this standard,
specific facts must demonstrate a defendant’s actions
“have perceptibly impaired” the organization’s activities. Havens Realty Corp., 455 U.S. at 379; see also Ark.
ACORN Fair Hous., Inc. v. Greystone Dev., Ltd. Co., 160
F.3d 433, 434 (8th Cir. 1998). Expending resources for
or in anticipation of litigation is insufficient to confer
standing. See WaterLegacy v. USDA Forest Serv., Case
No. 17-cv-276 (JNE/LIB) et al., 2019 WL 4757663, at
*12 (D. Minn. Sept. 30, 2019) (citing Food & Water
Watch, Inc. v. Vilsack, 808 F.3d 905, 919 (D.C. Cir.
2015)). Harm that does create standing must impact
the organization in a “measurable way,” such as
through a reduction in membership or a restriction on
the organization’s ability to serve its members. Cross,
184 F.3d at 980.

App. 28
WCFB and WCFU collectively allocated approximately $8,500 for legal fees to investigate and bring
the present claims. These expenditures, however, anticipated the onset of litigation and so cannot create
standing. Beyond that, leadership from both organizations contributed approximately 200 hours of time for
relevant meetings and travel to oppose the ordinance.
WCFB and WCFU also provided education to their
members and the public in an effort to repeal or amend
the dedication ordinance. These are no doubt drains on
organizational resources. Even so, WCFB and WCFU
fail to establish how that drain “perceptibly impaired”
their activities. They assert only that their expenditures of time and money for educational initiatives
and efforts to repeal the dedication ordinance could
have been put to alternative uses. See Doc. Nos. 44-21,
pp. 6-7; 44-28, pp. 5-6. But they neglect to explain “how
Defendants’ conduct has impaired their ability to advocate on behalf of the populations they serve, or how
their missions have been frustrated by the alleged diversion of resources.” S.C. ex rel. Melissa C. v. Riverview Gardens Sch. Dist., Case No. 2:18-cv-04162-NKL,
2019 WL 922248, at *2 (W.D. Mo. Feb. 25, 2019).
The Plaintiffs cite to Animal Legal Defense Fund
v. Reynolds, 297 F. Supp. 3d 901 (S.D. Iowa 2018), as
support for their argument, but that case is distinguishable. There, a district court found an animal
rights group had standing because it diverted resources to advocate for the repeal of a law that prohibited gaining access to an agricultural facility through
false pretenses. Reynolds, 297 F. Supp. 3d at 916-17.

App. 29
The plaintiff alleged that the law was enacted in response to animal rights groups conducting undercover
investigations in agricultural facilities. So the plaintiff
was forced to divert resources to advocate for the repeal of a law that restricted its ability to promote animal welfare—a direct threat to its organizational
mission. See id. Unlike the law in Reynolds, the dedication ordinance here in no way restricts WCFB or
WCFU from advocating for farmers. Nor is there
evidence that the two organizations have seen membership dwindle or that their activities have been adversely impacted in any other way. To the contrary, the
dedication ordinance is “simply a setback to . . . abstract social interests” that WCFB and WCFU have
voluntarily elected to contribute money and time towards. Cross, 184 F.3d at 979. Because the dedication
ordinance does not interfere with either WCFB or
WCFU’s organizational activities, they have not suffered an injury in fact for standing purposes.
This deficiency is not fatal, however. Apart from
traditional standing, associational standing permits
organizational plaintiffs to assert claims on behalf of
their members in limited circumstances. Midwest
Disability Initiative v. JANS Enters., Inc., 929 F.3d
603, 609 (8th Cir. 2019) (citing Friends of the Earth,
Inc. v. Laidlaw Envt’l Servs. (TOC), Inc., 528 U.S. 167,
180-81 (2000)). Associational standing is available
when “(1) the individual members would have standing to sue in their own right; (2) the organization’s
purpose relates to the interests being vindicated; and
(3) the claims asserted do not require the participation

App. 30
of individual members.” Sierra Club v. U.S. Army Corps
of Eng’rs, 645 F.3d 978, 986 (8th Cir. 2011) (citations
omitted). An organizational plaintiff “need not establish that all of its members would have standing to sue
individually so long as it can show that ‘any one of
them’ would have standing.” Iowa League of Cities v.
EPA, 711 F.3d 844, 869 (8th Cir. 2013) (quoting Warth
v. Seldin, 422 U.S. 490, 511 (1975)).
The first and second elements are easily met here.
Pietsch is a member of both WCFB and WCFU. As explained above, he has standing to sue in his individual
capacity. That is enough to satisfy the initial requirement. For the second element, the Defendants concede
that WCFB and WCFU’s organizational purposes coincide with the interests at stake in this litigation. Doc.
No. 50, p. 27. Organizations dedicated to advocating for
agriculture certainly have an interest in land-use regulations that predominantly effect farmers such as the
challenged dedication ordinance.
More controversial is the third element, which the
Defendants contend is the missing ingredient for associational standing. They broadly assert that determining whether the dedication ordinance violated the
Fourteenth Amendment Due Process Clause will require the Court to examine how the ordinance has
impacted individual members of WCFB and WCFU.
But where an organizational plaintiff “seeks only declaratory and prospective injunctive relief, the participation of individual [members] . . . is not required.”
Heartland Acad. Cmty. Church v. Waddle, 427 F.3d 525,
533 (8th Cir. 2005). To be sure, the outcome would be

App. 31
different if the two organizations attempted to assert
claims for damages on behalf of their members. See
Mo. Prot. & Advocacy Servs., Inc. v. Carnahan, 499 F.3d
803, 810 (8th Cir. 2007). Those claims would necessitate individualized proof of the dedication ordinance’s
particular application to each effected landowner, as
well as the value of the land dedicated. That is not
the relief the Plaintiffs seek. A hypothetical trial in
this matter could very well require WCFB and WCFU
members to testify as witnesses. That trial would not,
however, require those members to participate as parties, meaning proof of individual claims is unnecessary.
See Neb. Beef Producers Comm. v. Neb. Brand Comm.,
287 F. Supp. 3d 740, 750 (D. Neb. 2018). Consequently,
WCFB and WCFU possess associational standing to
sue on behalf of their members.
B. Ripeness
With standing resolved, the next hurdle the Defendants raise is ripeness. “The issue of ripeness,
which has both Article III and prudential components,
is one of subject matter jurisdiction.” Dakota, Minn. &
E. R.R. Corp. v. South Dakota, 362 F.3d 512, 520 (8th
Cir. 2004) (citation omitted). A general ripeness inquiry looks to “whether the harm asserted has matured enough to warrant judicial intervention.” Parrish
v. Dayton, 761 F.3d 873, 875 (8th Cir. 2014) (cleaned
up). The two factors for examination are “the fitness of
the issues for judicial decision and the hardship to the
parties of withholding court consideration.” Neb. Pub.
Power Dist. v. MidAmerican Energy Co., 234 F.3d 1032,

App. 32
1038 (8th Cir. 2000) (cleaned up). Mindful of those
overarching principles, more specific ripeness standards govern some—but not all—substantive due process claims in the land-use regulation context, as well
as procedural due process claims.
Beginning with procedural due process, the usual
rule is that “a litigant asserting a deprivation of procedural due process must exhaust state remedies before
such an allegation states a claim under § 1983.” Wax’n
Works v. City of St. Paul, 213 F.3d 1016, 1019 (8th Cir.
2000) (citations omitted). Unlike remedy exhaustion in
other contexts, “this requirement is necessary for a
procedural due process claim to be ripe for adjudication.” Crooks v. Lynch, 557 F.3d 846, 848 (8th Cir. 2009)
(citing Wax’n Works, 213 F.3d at 1020; Zinermon v.
Burch, 494 U.S. 113, 126 (1990)). There is an exception,
though, based on the manner that an alleged unconstitutional deprivation of property occurs. Namely, “it is
not necessary for a litigant to have exhausted available
postdeprivation remedies when the litigant contends
that he was entitled to predeprivation process.” Keating v. Neb. Pub. Power Dist., 562 F.3d 923, 929 (8th Cir.
2009) (citing Zinermon, 494 U.S. at 132). That is because “the availability of state law postdeprivation
remedies bears relevance only where the challenged
acts of state officials can be characterized as random
and unauthorized.” Coleman v. Watt, 40 F.3d 255, 262
(8th Cir. 1994); see also Lathon v. City of St. Louis, 242
F.3d 841, 844 (8th Cir. 2001). Conversely, “when an established state procedure or a foreseeable consequence
of such a procedure causes the loss, an adequate

App. 33
postdeprivation remedy is of no consequence.” Clark v.
Kansas City Mo. Sch. Dist., 375 F.3d 698, 702 (8th Cir.
2004) (citations omitted).
In this instance, the Defendants argue that Pietsch
and Irwin failed to exhaust available state remedies
for their as-applied claims because they did not appeal
the denial of their plat applications to a North Dakota
state district court or attempt to compel compensation
through inverse condemnation. But the Plaintiffs contend the dedication ordinance itself—an established
procedure—provides inadequate process, not that the
Defendants acted randomly or without authority to
deprive them of property. The complaint asserts that
shifting the burden to landowners to avoid dedicating
property by forcing them to apply for a variance, coupled with the narrowly defined standard to obtain such
a variance, prevents a meaningful opportunity to be
heard. See Doc. No. 30, ¶¶ 104-08. In other words, the
Plaintiffs claim the dedication ordinance is procedurally deficient before any property deprivation occurs.
Thus, the Plaintiffs challenge the predeprivation process afforded them, rendering any postdeprivation
remedies superfluous for ripeness purposes. Pietsch
and Irwin’s decision to forego additional state-law
remedies does not preclude consideration of their asapplied procedural due process claims.
The same holds true for the substantive due process claims. The Defendants argue that the Plaintiffs’
substantive due process claims, both facial and as applied, are an improper attempt to circumvent a similar exhaustion-style ripeness requirement for takings

App. 34
claims. Previously, the Supreme Court held that an action under § 1983 predicated on a takings claim was
not ripe (1) “until the government entity charged with
implementing the regulations has reached a final decision regarding the application of the regulations to the
property at issue,” commonly referred to as the finality
requirement; and (2) “until the owner has unsuccessfully attempted to obtain just compensation through
the procedures provided by the State for obtaining
such compensation,” commonly referred to as the statelitigation requirement. Williamson Cty. Reg’l Planning
Comm’n v Hamilton Bank of Johnson City, 473 U.S.
172, 186, 195 (1985), overruled in part by Knick v. Twp.
of Scott, 588 U.S., 139 S. Ct. 2162 (2019). Some courts
extended Williamson County’s heightened ripeness
standard in full to substantive due process claims
when grounded on underlying facts necessary to sustain a takings claim. See, e.g., John Corp. v. City of
Houston, 214 F.3d 573, 582-83 (5th Cir. 2000) (collecting cases). But the Eighth Circuit has required only
the finality prong for substantive due process challenges to land-use regulations. See McKenzie v. City of
White Hall, 112 F.3d 313, 317 (8th Cir. 1997); Christopher Lake Dev. Co. v. St. Louis Cty., 35 F.3d 1269, 1273
(8th Cir. 1994); see also GBT P’ship v. City of Fargo,
No. A3-00-50, 2001 WL 1820144, at *3 (D.N.D. Nov. 27,
2001). Even if the Court were to diverge from the authority in this circuit, the outcome would now remain
unchanged. Just two days after briefing concluded
in this case, the Supreme Court overruled Williamson County’s state-litigation requirement for takings
claims under § 1983, leaving the finality requirement

App. 35
alone intact. Knick, 139 S. Ct. at 2167. Thus, the Plaintiffs were not required to exhaust any state-law remedies as a prerequisite to pursuing substantive due
process claims.
The finality requirement does remain applicable,
but only to Pietsch and Irwin’s as-applied substantive
due process claims. Further paring down the ripeness
standard, Williamson County’s finality requirement
need not be met for facial challenges to land-use regulations. See San Remo Hotel, L.P. v. City & Cty. of
San Francisco, 545 U.S. 323, 345 (2005); Yee v. City of
Escondido, 503 U.S. 519, 534 (1992); Clayland Farm
Enters., LLC v. Talbot Cty., 672 F. App’x 240, 244 (4th
Cir. 2016); Temple B’Nai Zion, Inc. v. City of Sunny
Isles Beach, 727 F.3d 1349, 1359 n.6 (11th Cir. 2013);
Opulent Life Church v. City of Holly Springs, 697 F.3d
279, 287 (5th Cir. 2012); Asociacion de Suscripcion
Conjunta del Seguro de Responsabilidad Obligatorio v.
Juarbe-Jimenez, 659 F.3d 42, 51-52 (1st Cir. 2011).
This makes intuitive sense “because a facial challenge
by its nature does not involve a decision applying the
statute or regulation.” Church v. City of Medina, Civil
File No. 11-275 (MJD/FLN), 2012 WL 2395195, at *4
(D. Minn. June 25, 2012) (quoting Hacienda Valley Mobile v. Morgan Hill, 353 F.3d 651, 655 (9th Cir. 2003)).
The result is that all four Plaintiffs’ facial substantive
due process claims are subject to nothing more than
general considerations for ripeness.
Turning to the as-applied substantive due process
claims, finality is established when the relevant government entity has “arrived at a definite position . . .

App. 36
that inflicted an actual, concrete injury.” Christopher
Lake Dev. Co., 35 F.3d at 1273. Here, the County Commission is the government entity tasked with applying
Ward County’s zoning ordinance. The County Commission arrived at a definite position regarding the application of the dedication ordinance to Pietsch and
Irwin’s proposed plats upon denying their plat applications. See Elliott v. Lake Cty., No. CIV 10-04001-RAL,
2010 WL 4553548, at *5 (D.S.D. Nov. 3, 2010) (finding
county’s denial of permit application was a “definitive
position” for ripeness purposes). That action created an
actual, concrete injury because it effectively prevented
both Plaintiffs from subdividing their property. From
that point forward, the available appeal process allowed solely for review of the County Commission’s
decision—an unneeded avenue of potential relief to
satisfy finality. The two individual Plaintiffs’ as-applied
substantive due process claims therefore clear the finality requirement.
Looping back briefly, the two general ripeness requirements for both the procedural and substantive
due process claims are also satisfied. The as-applied
claims were sufficiently developed factually, and
therefore fit for judicial decision, when Ward County
denied Pietsch and Irwin’s plat applications. And all
the facial claims met this standard as soon as the
County Commission enacted the dedication ordinance on April 6, 2010.6 See Comprehensive Health of
6

The facial claims potentially accrued for statute of limitations purposes on April 6, 2010 as well. See, e.g., Hillcrest Prop.,
LLC v. Pasco Cty., 754 F.3d 1279, 1281-82 (11th Cir. 2014); Action

App. 37
Planned Parenthood Great Plains v. Hawley, 903 F.3d
750, 755 (8th Cir. 2018) (stating that “facial challenges
to regulation . . . are generally ripe the moment the
challenged regulation or ordinance is passed”) (quoting
Suitum v. Tahoe Reg’l Planning Agency, 520 U.S. 725,
736 n.10 (1997)). Withholding a court decision on this
issue, meanwhile, would do nothing more than unnecessarily prolong the constitutional uncertainty
surrounding the ordinance. See McDonald’s Corp. v.
Nelson, 822 F. Supp. 597, 605 (S.D. Iowa 1993). The
Plaintiffs’ substantive and procedural due process
claims are accordingly ripe for adjudication.
C. Abstention
The Defendants fall back on abstention doctrine
as a last effort to stonewall consideration of the due
process claims’ merits. “Abstention is an exception to
the general rule that ‘federal courts ordinarily should
entertain and resolve on the merits an action within
the scope of a jurisdictional grant.’ ” Oglala Sioux Tribe
v. Fleming, 904 F.3d 603, 610 (8th Cir. 2018) (quoting
Sprint Commc’ns, Inc. v. Jacobs, 571 U.S. 69, 73 (2013)).
When employed, abstention serves “to preserve ‘traditional principles of equity, comity, and federalism.’ ”
Apartment Ass’n, Inc. v. Santa Monica Rent Control Bd., 509 F.3d
1020, 1026-27 (9th Cir. 2007); Kuhnle Bros., Inc. v. Cty. of
Geauga, 103 F.3d 516, 521-22 (6th Cir. 1997). The Defendants
did not raise the statute of limitations in their answer or any subsequent pleadings, operating as a waiver of the defense. See Fed.
R. Civ. P. 8(c)(1); Varner v. Peterson Farms, 371 F.3d 1011, 1016
(8th Cir. 2004).

App. 38
Beavers v. Ark. State Bd. of Dental Exam’rs, 151 F.3d
838, 840 (8th Cir. 1998) (quoting Alleghany Corp. v.
McCartney, 896 F.2d 1139, 1142 (8th Cir. 1990)). The
particular limb of abstention doctrine the Defendants
call upon derives from Railroad Commission of Texas
v. Pullman Co., 312 U.S. 496 (1941).7 Pullman abstention “requires a federal court to refrain from exercising
jurisdiction when the case involves a potentially controlling issue of state law that is unclear, and the decision of this issue by the state courts could avoid or
materially alter the need for a decision on federal constitutional grounds.” Burris v. Cobb, 808 F.3d 386, 388
(8th Cir. 2015) (quoting Moe v. Brookings Cty., 659 F.2d
880, 883 (8th Cir. 1981)). Refining this principle, if
“there is no ambiguity . . . the federal court should not
abstain but should proceed to decide the federal constitutional claim.” Moe, 659 F.2d at 883 (citation omitted).
Abstention is inappropriate here because the dedication ordinance is unambiguous. The ordinance is
perfectly clear in what it demands—uniform right of
way dedication along section lines and roadways in
exchange for plat approval. See W.C.Z.O. ch. 3, art. 24,
§ 4(A)(12). The Plaintiffs do not contend the County
Commission should have construed the dedication
7

The other two branches of abstention doctrine are not implicated. Younger abstention requires an ongoing parallel state
proceeding. See Geier v. Mo. Ethics Comm’n, 715 F.3d 674, 678
(8th Cir. 2013). Burford abstention applies when federal adjudication would interfere with a complex state regulatory scheme
that requires specialized knowledge of state law. See Doe v.
McCulloch, 835 F.3d 785, 788 (8th Cir. 2016).

App. 39
ordinance in an alternate way that would skirt the constitutional issues. They assert that the ordinance itself,
as plainly written, violates the Constitution. Further,
there are no unsettled questions of state law because
the Century Code overtly authorizes counties to condition plat approval on dedication of land to the public.
See N.D. Cent. Code § 11-33.2-12. A reviewing state
court would therefore face nothing more than the exact
federal constitutional questions now before this Court.
Indeed, the Defendants have not even suggested
how Ward County’s dedication ordinance is unclear.
They seem to argue that abstention is warranted
simply because, first, a state court has not ruled on the
Plaintiffs’ claims and, second, land-use regulation is an
arena best left to state courts. That is not enough to
trigger Pullman abstention. No doubt, land-use regulation is an important state interest with which federal
courts are normally hesitant to interfere. See Night
Clubs, Inc. v. City of Fort Smith, 163 F.3d 475, 480 (8th
Cir. 1998). But if a federal court were required to abstain whenever a state court could pass upon identical
constitutional questions, abstention would become the
near-universal rule rather than the carefully limited
exception. Where, as here, a litigant lodges federal
constitutional claims against an unambiguous state
or local regulation, federal courts are bound to adhere
to their “virtually unflagging obligation” to exercise
otherwise proper jurisdiction. Spectra Commc’ns Grp.,
LLC v. City of Cameron, 806 F.3d 1113, 1121 (8th Cir.
2015) (quoting Colo. River Water Conservation Dist. v.

App. 40
United States, 424 U.S. 800, 817 (1976)). To abstain
from deciding this case would spurn that obligation.
In sum, Pietsch and Irwin have standing in their
individual capacities. WCFB and WCFU have standing
to sue on behalf of their members. The procedural and
substantive due process claims are ripe for review, and
abstention is unwarranted. As a result, the Court possesses subject matter jurisdiction and will proceed to
the merits.
V.

DUE PROCESS CLAIMS

The Fourteenth Amendment familiarly forbids a
state entity to “deprive any person of life, liberty, or
property, without due process of law.” U.S. Const.
amend. XIV, § 1. The Amendment includes procedural
and substantive components. Troxel v. Granville, 530
U.S. 57, 65 (2000). Where a property deprivation is alleged, both components require a plaintiff to establish
a constitutionally protected property interest. Ellis v.
City of Yankton, 69 F.3d 915, 917 (8th Cir. 1995). The
two standards diverge from there. Procedural due process safeguards against deprivations of property without sufficient process. In re Kemp, 894 F.3d 900, 908
(8th Cir. 2018). Substantive due process wards off
deprivations resulting from government intrusion into
fundamental rights or arbitrary or irrational government action. See United States v. Fortney, 357 F.3d
818, 821 n.4 (8th Cir. 2004). The Court will initially address whether the Plaintiffs have a protected property

App. 41
interest and then discuss the particularities of the two
due process components.
A. Protected Property Interest
North Dakota law establishes a protected interest
in the ability to subdivide property, so the due process
claims’ first element is satisfied. “To have a constitutionally cognizable property interest in a right or a
benefit, a person must have ‘a legitimate claim of entitlement to it.’ ” Austell v. Sprenger, 690 F.3d 929, 935
(8th Cir. 2012) (quoting Bd. of Regents of State Colleges v. Roth, 408 U.S. 564, 577 (1972)). “Property interests are not created by the Constitution, ‘they are
created and their dimensions are defined by . . . an independent source such as state law.’ ” Cleveland Bd. of
Educ. v. Loudermill, 470 U.S. 532, 539 (1985) (quoting
Roth, 408 U.S. at 577). When a state-created property
interest exists, “federal constitutional law determines
whether that interest rises to the level of a ‘legitimate
claim of entitlement’ protected by the Due Process
Clause.” Town of Castle Rock v. Gonzales, 545 U.S. 748,
757 (2005) (emphasis and internal quotations omitted). To that end, “a state statute . . . can create a constitutionally protected property interest, first, when it
contains particularized substantive standards that
guide a decision maker and, second, when it limits the
decision maker’s discretion by using mandatory language (both requirements are necessary).” McGuire v.
Indep. Sch. Dist. No. 833, 863 F.3d 1030, 1034 (8th Cir.
2017) (ellipses in original) (quoting Dunham v. Wadley,
195 F.3d 1007, 1009 (8th Cir. 1999)) (in turn citing

App. 42
Jennings v. Lombardi, 70 F.3d 994, 995-96 (8th Cir.
1995)). The government entity’s “discretion must be
limited such that the [statute] ‘mandat[es] the outcome
to be reached upon a finding that the relevant criteria
have been met.’ ” Id. at 1035 (second alteration in original) (quoting Ky. Dep’t of Corr. v. Thompson, 490 U.S.
454, 462 (1989)).
Both parties overlook the origin of the protected
property interest in this case. The Plaintiffs breeze
past this element, cursorily claiming a protected property interest in the ability to subdivide property by asserting that the dedication ordinance infringes on an
amorphous right to exclude others. They do not specifically identify how North Dakota law engenders a legitimate claim of entitlement to subdivide property. On
the opposite end of the spectrum, the Defendants mangle the distinct concept of a protected property interest
with the analysis for establishing a fundamental right
for certain substantive due process claims.
Nonetheless, the Plaintiffs do identify, albeit in
piecemeal fashion, the correct state-created property
interest—the ability to subdivide property—and the
correct provision of North Dakota law that anchors a
legitimate claim of entitlement to that interest—North
Dakota Century Code § 11-33.2-12. Set out in full
above, § 11-33.2-12 provides more than a dozen painstakingly specific factors that a county commission
must weigh before passing judgment on a plat application. If a county commission finds the statutory criteria
satisfied, the plat “shall be finally approved.” N.D.
Cent. Code § 11-33.2-12. If not, “then the board of

App. 43
county commissioners shall disapprove the proposed
plat.” Id. The plat approval statute therefore contains
precisely the particularized substantive standards
and discretion-limiting language necessary to form the
basis for a legitimate claim of entitlement to a statecreated property interest.
Supporting this notion, the North Dakota Supreme Court has held, in accord with the statute’s
plain language, that a county commission has no duty
to approve a plat application where one of the statutory factors is absent. See Dahm v. Stark Cty. Bd. of
Cty. Comm’rs, 2013 ND 241, ¶ 19, 841 N.W.2d 416. The
Dahm opinion also conspicuously left open whether a
mandatory duty to approve a plat application is triggered if an applicant satisfies the statutory criteria in
full. Id. (“Because [the Stark County Commission]
found Dahm’s application was at odds with [a statutory factor], it was under no duty to approve the request.”). At the same time, the court framed the
statute’s requirements in mandatory, rather than permissive, terms. Id. (“In determining whether a plat
shall be approved or disapproved, the County Board
shall . . . ”). Ultimately, the statute significantly limits
a county commission’s discretion to approve or disapprove a plat application through comprehensive
substantive considerations while using mandatory
language. The sole reason Pietsch and Irwin were prevented from creating their proposed outlots was their
refusal to dedicate additional right of way to Ward
County. The County Commission did not deny their
plat applications based on any other statutory factors.

App. 44
Thus, the Court concludes that the Plaintiffs have a legitimate claim of entitlement, and therefore a protected property interest, in the ability to subdivide
property under North Dakota Century Code § 11-33.212.
B. Procedural Due Process
To round out a procedural due process claim, the
Plaintiffs must demonstrate that the Defendants effected a deprivation of their ability to subdivide property without constitutionally sufficient process. See
Jenner v. Nikolas, 828 F.3d 713, 716 (8th Cir. 2016).
“The essential requirements of due process . . . are notice and an opportunity to respond.” Cleveland Bd. of
Educ., 470 U.S. at 546. “Required procedures may vary
according to the interests at stake, but the fundamental requirement of due process is the opportunity to be
heard at a meaningful time and in a meaningful manner.” Bus. Commc’ns, Inc. v. U.S. Dep’t of Educ., 739 F.3d
374, 380 (8th Cir. 2013) (cleaned up). Mirroring the
general standard, “In the zoning context . . . procedural
due process is afforded when the landowner has notice
of the proposed government action and an opportunity
to be heard.” Anderson v. Douglas Cty., 4 F.3d 574, 578
(8th Cir. 1993).
Attempting to brush aside this precedent, the
Plaintiffs argue that two Fifth Amendment takings
cases should moor the procedural due process standard
here. See Dolan v. City of Tigard, 512 U.S. 374 (1994);
Nollan v Cal. Coastal Comm’n, 483 U.S. 825 (1987). To

App. 45
clarify, the Plaintiffs explicitly disavow that their
amended complaint asserts any takings claims. See
Doc. No. 51, p. 3. They instead contend that Nollan and
Dolan set forth constitutional procedural protections
that the dedication ordinance contravenes.
By way of explanation, the Takings Clause of the
Fifth Amendment states, “nor shall private property
be taken for public use, without just compensation.”
U.S. Const. amend. V. Nollan and Dolan grappled with
a subset of takings jurisprudence pertaining to landuse exactions, which force a landowner to cede a property interest to the government without compensation
as a condition for obtaining a development permit. For
exactions to avoid running afoul of the Takings Clause,
a government entity must identify both an “essential
nexus” and “rough proportionality” between the perceived negative effect of the proposed development
and the condition exacted. See Dolan, 512 U.S. at 391;
Nollan, 483 U.S. at 837. Accomplishing this task requires a zoning authority to “make some sort of individualized determination that the required dedication
is related both in nature and extent to the impact of
the proposed development.” Dolan, 512 U.S. at 391.
The Plaintiffs posit that the Defendants violated
their due process rights because Ward County’s ordinance employs a one-size-fits-all approach that conditions plat approval on property dedication. They point
out that the ordinance requires an affected landowner
to apply for a variance and then demonstrate a hardship that the County can grant based only on physical
characteristics of the property. That approach, they

App. 46
theorize, thwarts the mandate for an individualized
determination of an “essential nexus” and “rough proportionality” between the transportation-related impact of a proposed outlot or subdivision plat and the
County’s actual need for right of way to support future
road projects.
In their endeavor to extend exaction jurisprudence
beyond the Takings Clause and into the realm of procedural due process, the Plaintiffs rely on Koontz v.
St. Johns River Water Management District, 570 U.S.
595 (2013), a progeny of Nollan and Dolan. That reliance is misplaced. Koontz held that denial of a development permit for refusing to accede to a government
demand for an unconstitutional exaction violates the
Takings Clause. See Koontz, 570 U.S. at 607. Grounding this conclusion on the doctrine of unconstitutional
conditions, the Supreme Court explained, “Extortionate demands for property in the land-use permitting
context run afoul of the Takings Clause not because
they take property but because they impermissibly
burden the right not to have property taken without
just compensation.” Id. at 607.
Although a violation of the Takings Clause, in a
Koontz scenario, a landowner is merely denied a permit and does not forfeit any property. That means the
Fifth Amendment’s unique remedy of just compensation for property taken is inaccessible. See id. at 60809. Because of this distinction, “In cases where there is
an excessive demand but no taking, whether money
damages are available is not a question of federal constitutional law but of the cause of action—whether

App. 47
state or federal—on which the landowner relies.” Id. at
609 (emphasis added). Extrapolating from that, the
Plaintiffs contend Koontz opened the door to substituting due process claims for takings claims whenever an
unconstitutional exaction results in the denial of a
land-use permit. That interpretation is flagrantly overbroad.
To start, the Plaintiffs do not seek money damages, but rather an injunction barring further enforcement of the dedication ordinance either globally or
particular to Pietsch and Irwin. As opposed to money
damages, securing injunctive relief is independent of
the Fifth Amendment’s particular remedy of just compensation. That is because a completed taking is not
necessary to enjoin a land-use regulation under the
doctrine of unconstitutional conditions. Quite distinctly,
all that is needed is a showing that the challenged demand for an exaction “impermissibly burden[s] the
right not to have property taken without just compensation.” Id. at 607 (emphasis added). As confirmation,
Justice Kagan explained that a Koontz-type plaintiff
“is entitled to have the improper condition removed”
and may sue “to invalidate the purported demand as
an unconstitutional condition” without resorting to anything other than the Takings Clause. Id. at 620, 634
(Kagan, J., dissenting) (agreeing with the majority on
this issue). No question, where a plaintiff seeks monetary relief for an impermissible denial of a permit
predicated on an unconstitutional exaction, tolerating
an alternative remedy makes perfect sense because
there is no taking and just compensation is therefore

App. 48
unavailable. But for injunctive relief, the analysis begins and ends with the Fifth Amendment. Permitting
federal judges to strike down land-use regulations as
violations of procedural due process because they actually violate the Takings Clause is assuredly not a door
the Supreme Court opened in Koontz.
True enough, due process is a “flexible” concept. Mathews v. Eldridge, 424 U.S. 319, 334 (1976).
But adopting the Plaintiffs’ contorted position would
break—not bend—procedural due process protection.
See Lind v. Midland Funding, L.L.C., 688 F.3d 402, 405
(8th Cir. 2012) (“Despite this flexibility, for more than
a century the central meaning of procedural due process has been clear: Parties whose rights are to be affected are entitled to be heard; and in order that they
may enjoy that right they must first be notified.”)
(cleaned up). Nollan and Dolan were decided more
than 25 years ago, and Koontz nearly seven years ago.
Despite the length of time that has elapsed, the Plaintiffs do not cite to, and the Court has yet to discover, a
single case that supports their novel theory. Underscoring this point, the Supreme Court has expressly rejected, on multiple occasions, attempts to “recast in
‘procedural due process terms’ ” otherwise substantive
challenges to regulation. Reno v. Flores, 507 U.S. 292,
308 (1993); see also Conn. Dep’t of Pub. Safety v. Doe,
538 U.S. 1, 7-8 (2003); Michael H. v. Gerald D., 491 U.S.
110, 120-21 (1989). Nollan and Dolan articulate substantive standards for adjudicating takings claims.
See Lingle v. Chevron U.S.A. Inc., 544 U.S. 528, 546
(2005). Those cases plainly have nothing to do with the

App. 49
procedure a landowner is entitled to for property
deprivations in the land-use regulation context. Put
simply, if the Plaintiffs believe the dedication ordinance is invalid because it bucks the Fifth Amendment
takings standards handed down in Nollan and Dolan,
then they should have pursued a Fifth Amendment
takings challenge based on Nollan and Dolan.
Viewing Pietsch and Irwin’s as-applied procedural
due process claims through the appropriate constitutional lens, the Defendants provided adequate notice
of the dedication requirement and an opportunity to
be heard. Both Plaintiffs had actual notice that their
property was subject to dedication throughout the
plat application process. Beyond notice, Pietsch and
Irwin were each afforded opportunities to participate
in hearings at the Planning Commission and County
Commission levels. Even though the County Commission was not bound to consider the economic implications of the dedication requirement when deliberating
on Pietsch and Irwin’s plat applications, the record indicates those factors would have been considered if
presented. Doc. No. 44-5 at 112:9-18. Procedural due
process mandates a meaningful opportunity to be
heard, not a guarantee of a favorable outcome. Pietsch
and Irwin knew what the dedication ordinance required and had ample opportunity to present their plat
applications and variance requests. Their as-applied
claims accordingly fail. Because the dedication ordinance afforded sufficient process to Pietsch and Irwin,
the ordinance is not “unconstitutional in all its applications.” Bucklew, 139 S. Ct. at 1127. For that reason,

App. 50
all four Plaintiffs’ facial procedural due process claims
falter as well.
C. Substantive Due Process
The substantive due process claims fare no better.
“[T]he theory of substantive due process is properly reserved for truly egregious and extraordinary cases.”
Novotny v. Tripp Cty., 664 F.3d 1173, 1178 (8th Cir.
2011) (alteration in original) (quoting Myers v. Scott
Cty., 868 F.2d 1017, 1019 (8th Cir. 1989)). Substantive
due process insulates constitutionally protected property interests and fundamental rights from government conduct that “shocks the conscience.” Gallagher
v. Magner, 619 F.3d 823, 840 (8th Cir. 2010) (citations
and internal quotation marks omitted) (discussing
constitutionally protected property interests); Norris v.
Engles, 494 F.3d 634, 638 (8th Cir. 2007) (discussing
fundamental rights). As previously established, the
Plaintiffs have a constitutionally protected interest in
the ability to subdivide property under North Dakota
law.
The Eighth Circuit deploys two separate standards
for facial and as-applied substantive due process challenges to property deprivations resulting from landuse regulations. See WMX Techs., Inc. v. Gasconade
Cty, 105 F.3d 1195, 1198 n.1 (8th Cir. 1997); Bellino
Fireworks, Inc. v. City of Ankeny, 332 F. Supp. 3d 1071,
1095-96 (S.D. Iowa 2018); Duffner v. City of St. Peters,
Case No. 4:16-CV-01971-JAR, 2018 WL 1519378, at *56 (E.D. Mo. Mar. 28, 2018). For as-applied claims, a

App. 51
plaintiff “must demonstrate the ‘government action
complained of is truly irrational, that is something
more than arbitrary, capricious, or in violation of state
law.’ ” Koscielski v. City of Minneapolis, 435 F.3d 898,
902 (8th Cir. 2006) (ellipses in original) (quoting Anderson, 4 F.3d at 577). A valid facial challenge, meanwhile, requires a plaintiff to prove that the land-use
regulation itself “is arbitrary, capricious and not rationally related to a legitimate public purpose.” WMX
Techs., Inc., 105 F.3d at 1198-99 (citing Pennell v. City
of San Jose, 485 U.S. 1, 11 (1988)).
The Defendants lob two unpersuasive threshold
arguments that can be dispensed with up front. They
first make the blanket assertion that substantive due
process claims always require the invasion of a fundamental right. Not so. After all, the Fourteenth Amendment Due Process Clause does not end at the word
“liberty.” Deprivations of protected property interests
routinely sustain substantive due process claims. See,
e.g., Gallagher, 619 F.3d at 840; Bituminous Materials,
Inc. v. Rice Cty., 126 F.3d 1068, 1070 (8th Cir. 1997).
Their next contention is that the Plaintiffs’ substantive due process claims fail because they are in
substance takings claims. This argument lacks merit,
too. Unlike the procedural due process claims, the
Plaintiffs’ substantive due process arguments do not
hinge on Nollan and Dolan—or any other takings jurisprudence for that matter. Were that the case, then
the Takings Clause would control as the “explicit textual source” for the claims, and the “more generalized
notion of ‘substantive due process’ would necessarily

App. 52
fade away. Graham v. Connor, 490 U.S. 386, 395 (1989).
But in reality, the Plaintiffs’ substantive due process
claims assert only that the dedication ordinance is
irrational and unrelated to a legitimate government
purpose. And the Supreme Court has made clear that
apart from a takings challenge, a land-use “regulation
that fails to serve any legitimate governmental objective may be so arbitrary or irrational that it runs afoul
of the Due Process Clause.” Lingle, 544 U.S. at 542 (citing Cty. of Sacramento v. Lewis, 523 U.S. 833, 846
(1998)); see also id. at 548 (Kennedy, J., concurring).
Substantive due process claims predicated on the arbitrary or irrational deprivation of a protected property
interest are entirely appropriate.
Whether those claims succeed in this case is a different story. Pietsch and Irwin’s as-applied claims
come up well short. Truly irrational government action
“bear[s] no relationship whatever to the merits of the
pending matter.” Lemke v. Cass Cty., 846 F.2d 469,
472 (8th Cir. 1987) (en banc) (per curiam) (Arnold, J.,
concurring). Posited examples include making zoning decisions by coin toss or applying an ordinance exclusively to those whose names begin with a letter in
the first half of the alphabet. See id.; Chesterfield Dev.
Corp. v. City of Chesterfield, 963 F.2d 1102, 1104 (8th
Cir. 1992). Here, the County Commission did not act in
a truly irrational manner when denying Pietsch and
Irwin’s plat applications—it simply followed the letter
of the dedication ordinance. Pietsch and Irwin wanted
to create outlots. Their properties abutted existing
roadways, so the ordinance called for them to dedicate

App. 53
right of way. They attempted to avoid dedicating that
right of way by applying for variances as the ordinance
allowed. The County Commission considered their
plat applications and accompanying variance requests,
eventually determining Pietsch’s property did not
meet the hardship definition required for a variance
and the Trust’s property did not satisfy the County’s
right of way requirements. Because of those deficiencies, the County Commission denied Pietsch and Irwin’s plat applications.
From start to finish, the County Commission’s
decisionmaking related exclusively to the merits of
Pietsch and Irwin’s plat applications. There was no
coin flipping or alphabetizing, no blatant personal animus, and no other inappropriately irrelevant decisionmaking taking place here. Pietsch’s contention
that Ward County had already decided to reconstruct
the road adjacent to his property and Irwin’s inverse
assertion that the County had no plans to improve the
gravel road bordering his proposed outlot therefore
miss the mark. Those arguments go to the dedication
ordinance’s alleged structural deficiencies, not the
County Commission’s application of the ordinance
under the circumstances. WMX Techs., Inc., 105 F.3d
at 1198 n.1 (“When one makes an ‘as applied’ challenge, he or she is attacking only the decision that applied the ordinance to his or her property, not the
ordinance in general.”). The dedication ordinance does
not mandate an inquiry into whether Ward County
needs right of way for future road construction projects. So the County Commission cannot be faulted for

App. 54
failing to apply a nonexistent provision of the ordinance. The bottom line is that the County Commission
looked at the dedication ordinance, then looked at the
variance applications, and arrived at the conclusion
that the two were incompatible. That is not truly irrational government action. The as-applied claims end
there.
The heart of the Plaintiffs’ substantive due process theory, however, assails the dedication ordinance
as arbitrary, irrational, and unrelated to a legitimate
government purpose on its face. Because an alternative standard governs facial challenges in this context,
separate analysis is necessary. See Bellino Fireworks,
Inc., 332 F. Supp. 3d at 1095-96; Duffner, 2018 WL
1519378, at *5-6. The burden rests with the Plaintiffs
to prove that either (1) the dedication ordinance serves
no legitimate government purpose or (2) the dedication
ordinance is not rationally related to a legitimate purpose. See Karsjens v. Piper, 845 F.3d 394, 407-08 (8th
Cir. 2017). The Plaintiffs attack the dedication ordinance from both angles.
Addressing the first prong, “Legislative bodies are
given broad latitude in their legislative determinations, ‘and it is not the province of the courts to monitor
the inputs into each legislative decision.’ ” WMX Techs.,
Inc., 105 F.3d at 1201. To prevail on this ground, the
Plaintiffs must negate “every conceivable basis which
might support” the dedication ordinance. FCC v. Beach
Commc’ns, Inc., 508 U.S. 307, 315 (1993) (citations
omitted). The Plaintiffs begin by correctly noting
that a regulation’s “true” purpose is irrelevant when

App. 55
determining if that regulation is rooted in a legitimate
government purpose. See WMX Techs, Inc., 105 F.3d at
1201. But they then conduct an about face and proceed
to attack what they allege to be the dedication ordinance’s singular true purpose. Without pointing to one
iota of supporting evidence from the record, they assert
that the ordinance is intended to create a land bank
that allows Ward County to dodge eminent domain
proceedings. Merely speculating as to what the Plaintiffs believe the ordinance’s purpose to be is patently
not enough to carry the burden of proof.
Even if Ward County had enacted the dedication
ordinance to bypass eminent domain, that would not
matter because the ordinance is conceivably designed
to provide for public roads, a government interest that
the Plaintiffs concede is legitimate. Doc. No. 44, p. 29.
Countering the Plaintiffs’ conjecture is concrete evidence that the County Commission passed the dedication ordinance in response to local engineers and
developers expressing concern that the statutory 33foot right of way insufficiently accommodated the labor
and equipment demands of modem road projects. Doc.
No. 44-5 at 60:11-64:15. The Plaintiffs try to constrict
this apparent purpose by claiming the dedication ordinance cannot provide for the creation of roads because
it applies to property bordering preexisting roadways.
Though creative, this argument ignores that maintaining and rebuilding roads to allow for their safe operation and use is an equally plausible reason to acquire
right of way. The construction and operation of public

App. 56
roads yields a conceivable legitimate government purpose to sustain the dedication ordinance.
Furthermore, the ordinance is rationally related
to providing for public roads. Authorizing the acquisition of right of way where roads exist or might be built
in the future is clearly related to the dedication ordinance’s conceivable purpose of facilitating road construction and maintenance. Does the ordinance sweep
more broadly than necessary? Almost certainly. The
County will not always have an immediate need to construct or rebuild a road every time the ordinance requires a landowner to dedicate property. But on
rational basis review, an ordinance need not be narrowly tailored to the task at hand. See Heller v. Doe ex
rel. Doe, 509 U.S. 312, 321 (1993) (“[C]ourts are compelled under rational-basis review to accept a legislature’s generalizations even when there is an imperfect
fit between means and ends. A [regulation] does not
fail rational-basis review because it is not made with
mathematical nicety or because in practice it results in
some inequality.”) (citations and internal quotation
marks omitted). The Plaintiffs have failed to demonstrate that there is no rational relationship between
the dedication ordinance and the provision of public
roads. The facial substantive due process claims likewise fail as a result.
The chief difficulty with substantive due process
claims like this one is that they call upon a court to
substitute its judgment for that of duly elected officials.
The solution to the Plaintiffs’ problems is as much political as it is legal, if not more so. The citizens of Ward

App. 57
County can elect leaders to change the dedication ordinance. Absent the kind of “truly egregious and extraordinary” circumstances that trigger the protections of
the Constitution, this Court will not.
VI. CONCLUSION
This opinion is far from a ringing endorsement of
Ward County’s dedication ordinance. Without question, counties possess the authority to take private
property to provide for public roads. But doing so via
legislative backdoor in a manner that avoids compensating landowners appears to infringe on a right enshrined in our Constitution. That right is not at issue
today. The dedication ordinance is not irrational, nor
does it deprive effected landowners of notice and an opportunity to be heard. Due process does not fit the bill.
Accordingly, no genuine dispute of material fact
remains, and the Defendants are entitled to judgment
as a matter of law. The Court has reviewed the entire
record, the parties’ filings, and the relevant legal authority. For the reasons above, the Defendants’ motion
for summary judgment (Doc. No. 40) is GRANTED.
The Plaintiffs’ motion (Doc. No. 42) is DENIED. The
complaint against the Defendants is hereby DISMISSED WITH PREJUDICE.
IT IS SO ORDERED.
LET JUDGMENT BE ENTERED ACCORDINGLY.

App. 58
Dated this 10th day of March, 2020.
/s/ Peter D. Welte
Peter D. Welte, Chief Judge
United States District Court

App. 59
SANITARY REQUIREMENTS
Section 1.

Inspection.

After the adoption of this resolution, no building other
than those used for farming in the zoned areas of
Ward County shall hereafter be erected, reconstructed,
moved, or any work started upon same until proper
permits have been obtained from the Building Inspector as provided by this resolution. The building inspector shall not issue a permit until the following has been
determined:
A.

Source of Water Supply: Whenever a building
is to be and not connected to an approved
water supply, evidence shall be submitted
showing that the system to be provided is considered as being safe and satisfactory by the
State Health Department or other designated
agency.

B.

Sewage Disposal: Whenever a building to be
erected is not connected to an approved sanitary sewer system, evidence shall be submitted showing that the system and the method
of disposal are considered satisfactory by the
State Health Department or other designated
agency. Such information shall include leaching capabilities of the particular soil in question.

App. 60
ARTICLE 24
REGULATIONS GOVERNING THE SUBDIVISION
OF LAND WITHIN THE ZONED AREAS OF
CERTAIN PARTS OF THE UNINCORPORATED
PORTION OF WARD COUNTY
Section 1.

Purpose.

In order to provide for the proper arrangement of
streets in relation to other existing and planned
streets, and to the master plan of the City of Minot; to
provide for adequate and convenient open spaces, for
recreation, for light and air; in order to avoid congestion of population; in order to provide for traffic, for
utilities, for access of fire-fighting apparatus; in order
to provide for and improve the public health, safety
and general welfare of the County of Ward, the following rules and regulations for the plating and subdivision of zoned land within the County of Ward are made
part of this regulation in accordance with the laws of
the State of North Dakota:
A. All subdivisions of lands within six miles of
the City of Minot shall be subdivided according to the master plan of the City of Minot as
provided by Chapter 40-48 of the North Dakota Century Code.
Section 2.

Procedure.

Before preparing the general plan of a subdivision,
the subdivider should consult informally with the
County Planning Commission and the County Engineer concerning the relation of his property to existing

App. 61
conditions, future plans, community facilities, utilities
and services.
Section 3.

Tentative Approval.

A. The subdivider shall apply to the Planning
Commission for tentative approval of a subdivision plat.
B.

Three prints of the preliminary plan of the
subdivision shall be filed with the Planning
Commission at the time application for tentative approval is made. The plat shall comply
with the provisions of Section 5, Item A, of this
section. Fees charged for the filing of a subdivision plat shall be paid in full, on the basis of
estimated number of lots created, at the time
of application for tentative approval.

C.

The Planning Commission shall approve, approve conditionally or disapprove such preliminary plat. If approved with modification
or waiver of certain requirements by the Planning Commission, the reasons therefore shall
be specified. If approved conditionally, the
conditions and reasons therefore shall be
stated. In any conditional approval, the Planning Commission may require the subdivider
to submit a revised preliminary plat. If disapproved, the reasons for that action shall be
stated, and if possible, the Planning Commission shall make recommendations on the basis of which the proposed subdivision may be
approved.

App. 62
D. The action of the Planning Commission shall
be entered on the official records of the Planning Commission, including any conditions
imposed and the reasons for any disapproval
of a preliminary plat. The approval or disapproval of the Planning Commission shall be
noted on two prints of the preliminary plat,
one of which prints shall be returned to the
subdivider and the other retained by the Planning Commission.
E.

Tentative approval of a preliminary plat by
the Planning Commission is not an acceptance of the subdivision plat for record, but
is rather an expression of approval of a general plat as a guide to preparation of a subdivision plat for final approval and recording
upon fulfillment of all requirements of these
regulations.

F.

Tentative approval shall be effective for a
maximum period of twelve months, unless,
upon application by the developer, the Planning Commission grants an extension. If the
final plat has not been submitted for final approval within this time limit, a preliminary
plat must again be submitted to the Planning
Commission for tentative approval.

Section 4.
A.

Design Standards.

Streets and Alleys.
1.

The arrangement, character, extent,
width, grade and location of all streets
shall conform to the Master Plan and

App. 63
shall be considered in relation to existing
and planned streets, to topographical conditions, and to the proposed uses of lands
to be served thereby.
2.

Where it is now shown on the Master
Plan of the City of Minot, the arrangement of streets in a subdivision shall either:
a.

Provide for the continuation or appropriate projection of existing principal streets in surrounding areas; or

b.

Conform to a plan for the neighborhood approved or adopted by the
Planning Commission to meet a particular situation where topographical
or other conditions make continuance of or conformance to existing
streets impractical.

3.

Minor streets shall be so laid out that
their use by through traffic is discouraged.

4.

Where a subdivision abuts or contains an
existing or proposed major street, the
Planning Commission may, at its discretion, require marginal access streets,
reverse frontage of lots with a screen
planting contained in a no-access reservation along the rear property lines, deep
lots with rear service alleys, or other
treatment that it deems advisable to
give adequate protection to residential

App. 64
properties and afford separation of through
and local traffic.
5.

Private streets shall be prohibited.

6.

Reserve strips controlling access to
streets shall be prohibited except where
their control is definitely placed with the
county under conditions approved by the
Planning Commission.

7.

Street jogs shall be avoided.

8.

A tangent at least 100 feet long shall be
introduced between reverse curves on
major and secondary streets.

9.

When connecting street lines deflect from
each other by more than ten degrees, they
shall be connected by a curve of adequate
radius to insure clear visibility for all vehicles.

10. Intersecting streets shall be laid out at as
nearly right angles as possible, and no
such angle of intersection shall be less
than 60 degrees.
11. Property lines at street intersections
shall be rounded with a radius of ten feet,
or of a greater radius where the Planning
Commission may deem necessary. The
Planning Commission may permit chords
or cut-offs in place of rounded corners.

App. 65
12. Unless otherwise shown on the Master
Plan, right-of-way and roadway widths
shall be not less than as follows:
Class of Road

Right of Way

County Roads:

150 ft. (75' from centerline)

Township Roads
& Section Lines

80 ft. (40' from centerline)

Frontage Roads:

80 ft. (40' from centerline)

Rural Subdivision
Roads:
80 ft. (40' from centerline)
Plats proposed along roads shall donate
and dedicate to the public for public use
sufficient right-of-way to meet these requirements.
13. Subdivisions shall be of a design as to
provide building setbacks from the center
line of such highways as to conform to Article 20.
14. Half-streets shall be prohibited except
where essential to the reasonable development of the subdivision in conformity
with the other standards of these regulations, and where the planning commission finds it will be practicable to require
the dedication of the other half when the
adjoining property is subdivided. Wherever there exists a half-street adjacent to
a tract to be subdivided, the other half
shall be platted within such tract.

App. 66
15. Dead-end streets designed to be permanently without outlet shall be no longer
than 500 feet, and shall be provided at the
closed end with a turn-around having an
outside roadway diameter of at least 100
feet.
16. No street names will be used that will duplicate or be confused with the names of
existing streets. Streets that are now or
will eventually be continuations of existing streets shall be called by the names of
the existing streets.
17. All streets shall have a grade of not
less than 0.5 percent. No major street
shall have a grade in excess of 8 percent
and no other street shall have a grade in
excess of 10 percent, or as the Planning
Commission shall approve.
18. The width of all residential alleys shall be
20 feet; all other alleys shall be 30 feet.
19. Dead-end alleys should be avoided, but if
unavoidable, shall be provided with 50
feet in diameter turn-around facilities at
the closed end.
20. Minimum road standards for township
subdivision roads:
Section 6.

Outlot and Subdivision Plat Approval.

A. Final plats of outlots and subdivisions of land
located within the boundaries of the district(s)
covered by this Resolution shall be approved

App. 67
by the Board of Ward County Commissioners
in accordance with the procedures described
in North Dakota Century Code Section 1133.212 and/or as it may be amended. The
Ward County Planning Commission is hereby
empowered to investigate and to conduct public hearings into the public use and interest
proposed to be served by proposed plats and
to consider the public health, safety and welfare elements of. NDCC 11-33.2-12 paragraph
3 and, if relevant, the potential effect on the
value of adjoining property in making a recommendation for approval or disapproval to
the Board of Ward County Commissioners. No
outlot or subdivision plat of land included
within the boundaries of the zoning districts
covered by this Resolution shall be recorded
in the office of the Ward County Register of
Deeds until approved by the Board of Ward
County Commissioners.
B.

A parcel of land of 40 acres or more, or land to
be used for farming shall not require a plat so
long as it is not irregularly shaped, can easily
be described, and has access from a public
road.

Section 7.

Vacation.

Vacation of subdivisions, plats, outlets, streets or alleys
or any part thereof, shall be with the approval of the
Ward County Planning Commission and shall conform
to the rules as the Planning Commission may set
forth.

App. 68
Section 8.
A.

Variances.

Hardship.
1.

Where it can be shown in the case of
a particular proposed subdivision, that
strict compliance with the requirements
of these regulations would result in extraordinary hardship to the subdivider
because of unusual topography, or other
such conditions would result in retarding
the achievement of the objective of these
regulations, then the Planning Commission may vary, modify or waive requirements so that substantial justice may be
done and the public interest secured; provided that such variance, modification or
waiver will not have the effect of nullifying the intent and purpose of these regulations, or of the Master Plan.

2.

In no case shall any variance, modification or waiver be more than a minimum
easing of the requirements; in no case
shall it have the effect of reducing the
traffic capacity of any major or secondary
street; in no case shall it be in conflict
with existing zoning regulations.

3.

In granting variances, modification or
waivers, the Planning Commission may
require such conditions as will in its judgment; secure substantially the objectives
of the standards and regulations so affected.

App. 69
B.

Large Scale Developments.
1.

Section 9.

These regulations may be modified by
the Planning Commission in the case of
a plan for a new town or a complete community or neighborhood unit, with a building and development program which, in
the judgment of the Planning Commission, provides and dedicates adequate
public open spaces and improvements
for the circulation, recreation, education,
light, air and service needs of the tract
when fully developed and which provides
such covenants, financial guaranties, and
other legal assurances that the plan will
be followed and will be achieved.
Fees.

A. In order to cover the costs of examining plans,
advertising and holding public hearings, and
other expenses incidental to the approval of a
subdivision, the subdivider shall pay a fee at
the time of application for tentative approval
of a preliminary plat. Such fee will be based
upon the estimated number of lots created. At
the time of application for final approval of
the subdivision the required fee will be recalculated on the basis of the actual number
of lots created, and an adjustment of the fee
will be made, the subdivider to pay an additional amount or to receive a refund of any
portion of the fee if the subdivider fails to apply for final approval of the subdivision. If,
because of the failure of the subdivider to

App. 70
submit a final plat within 12 months after receiving tentative approval of a preliminary
plat, it is necessary to re-submit a preliminary
plat for tentative approval, the subdivider
shall be required to pay the fee currently in
effect at the time of resubmission.
B.

The fees for approval of a subdivision or outlot
plat shall be charged and collected at the following rates:
Number of Lots in Subdivision

Fee

1 to 25

$50.00

26 to 50

$75.00

